US. GOVERNMENT PRINTING OFHCE




Date
December 21, 2011
To
Public Printer
From
Inspector General
Subject
FY 2011 Independent Auditors' Report
Report Number 12-02

Attached is the Independent Auditors' Report on the U.S. Government
Printing Office's GPO FY 2011 financial statements. We contracted with the
independent certified public accounting firm of KPMG LLP KPMG to audit
the financial statements of the GPO as of and for the years ended September
30, 2011 and 2010. The contract required that the audit be conducted in
accordance with generally accepted government auditing standards
GAGAS.

KPMG's opinion on GPO's financial statements is unqualified. KPMG's
consideration of internal control over financial reporting resulted in two
significant deficiencies, which were not considered to be material
weaknesses. These control deficiencies were aver processing and
maintenance of human resource and payroll information and information
technology controls.

KPMG is responsible for the attached auditors' report and the conclusions
expressed in the report. However, in connection with the contract, we
reviewed KPMG's report and related documentation and inquired of its
representatives. Our review, as differentiated from an audit in accordance
with GAGAS, was not intended to enable us to express, and we do not
express, an opinion on GPO's financial statements; or conclusions about the
effectiveness of internal control; or on GPO's financial management systems;
or conclusions on GPO's compliance with laws and regulations. Our review
disclosed no instances where KPMG did not comply, in all material respects,
with GAGAS audit requirements.




KsepnQ America Informed i www.gpo.gov/oig                                    ag-on,
Public Printer
Report 12-02
December 21, 2011
Page 2 of 2


If you have any questions or comments about this report, please do not
hesitate to contact me at 202 512-0039!




Michael A. Raponi
Inspector General

Attachment

cc:
Deputy Public Printer
Chief of Staff
General Counsel
Chief Financial Officer
Chief Information Officer
